WAIVER
SUPREME COURT OF THE UNITED STATES
20-871
Bryant Moore
(Petitioner)
I DO NOT INTEND TO FILE A RESPONSE to the petition for an extraordinary petition for a writ of
mandamus and/or prohibition unless one is requested by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Real Parties-in-Interest Lightstorm Entertainment, Inc.,
James Cameron, and Twentieth Century Fox Film Corporation
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

January 22, 2021

(Type or print) Name

Robert H. Rotstein
□ Mr.

Firm
Address

□ Mrs.

□ Miss

Mitchell Silberberg & Knupp LLP
2049 Century Park East, 18th Floor

City & State
Phone

□ Ms.

Los Angeles, California

(310) 312-3215

Email

Zip

90067

rxr@msk.com; kls@msk.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Bryant Moore
Pro Se Petitioner
4100 River Rd.
Latham, NY 12110

